CERTIFICATE OF SERVICE
NO. 19-1181
The Estate of Thomas Steinbeck et al.
Petitioner(s)
v.
Waverly Scott Kaffaga
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS AMICUS AT PETITION STAGE IN SUPPORT OF
PETITIONER(S), by mailing three (3) true and correct copies of the same by USPS Priority mail, postage
prepaid for delivery to the following addresses:
Matthew James Dowd
Dowd Scheffel PLLC
1717 Pennsylvania Avenue, NW
Suite 1025
Washington, DC 20006
202-559-9175
mdowd@dowdscheffel.com
Counsel for The Estate of Thomas Steinbeick, et al.

Susan J. Kohlmann
Jenner and Block LLP
919 Third Avenue
38th Floor
New York, NY 1002
212-891-1690
skohlmann@jenner.com
Counsel for Waverly Scott Kaffaga

Lucas DeDeus

April 29, 2020
SCP Tracking: Baldavia-9100 Wilshire Blvd.,-Cover Cream

